     +,.tl< ~£HVIC'~.y


(          ~                  DEPARTMENT OF HEALTH & ffiJMAN SERVICES                                                   Office
                                                                                                                        Office of
                                                                                                                               of Inspector
                                                                                                                                   Inspector General
                                                                                                                                             General


    '<::2'f-
('-'~ DEPARTMENT OF HEALTH & HUAN SERVICES

',,,.~f­                                                                                                                Washington, D.C.
                                                                                                                        Washington, D.C. 20201

                                                                                                                                          20201




                                                                  JUN -- 99 2009
                                                                  JUN       20



                                   , osePhfve~
                                      .~~
                  TO:
                  TO:                     Charlene Frizzera
                                          Charlene  Frizzera
                                          Acting Administrator

                                          Acting Administrator
                                           ent rs for Medicare & Medicaid Services



                  FROM: .
                  FROM:
                                   J  Jent
                                           oseph E. Vengr'7
                                         Deputy Inspector
                                           rs for         General
                                                          General
                                                   Medicare       for Audit
                                                                  for
                                                            & MedicaidAudit Services
                                                                            Services
                                                                         Services




                   SUBJECT:
                   SUBJECT: Review of 
   Review of Termination Claim
                                                                 Claim for
                                                                       for Postretirement
                                                                           Postretirement Benefit
                                                                                          Benefit Costs
                                                                                                  Costs Made
                                                                                                        Made by
                                                                                                             by CareFirst
                                                                                                                CareFirst
                                          of Maryland, Incorporated
                                          of           Incorporated (A-07-09-00299)
                                                                    (A-07-09-00299)


                   Attachedisisan
                   Attched            anadvance
                                           advancecopy   copyofofour
                                                                  ourfinal
                                                                      finalreport
                                                                            reporton
                                                                                   onthe
                                                                                      thetermination
                                                                                          termination claim
                                                                                                      claim for
                                                                                                            for postretirement
                                                                                                                postretirement
                   benefit     (PRB)       costs    made
                   benefit (PRB) costs made by CareFirst of by CareFirst  of Maryland,  Incorporated
                                                                                        Incorporated   (CareFirst).
                                                                                                      (CareFirst).  We will
                                                                                                                        wil issue
                                                                                                                             issue this
                   report to CareFirst within 5 business days.

                   CareFirst administered
                              administered Medicare
                                           Medicare Part
                                                      Part A
                                                           A and
                                                             and Part
                                                                  Par BB operations
                                                                         operations under cost reimbursement
                   contracts with the Centers
                                      Centers for
                                              for Medicare
                                                  Medicare & & Medicaid
                                                               Medicaid Services
                                                                          Services (CMS)
                                                                                    (CMS) beginning
                                                                                           beginning July
                                                                                                      July 1,
                                                                                                            1, 1966.
                                                                                                               1966. On
                   December 31, 1994, the Part
                                            Par BB contractual
                                                   contractual relationship
                                                                relationship was
                                                                             was terminated,
                                                                                  terminated, and
                                                                                              and on
                                                                                                  on September
                                                                                                     September 30,30,
                   2005,
                   2005, the
                         the Part   contractual relationship was terminated.
                              Par A contractual                                 Throughout the period of
                                                                   terminated. Throughout              of its
                                                                                                          its Medicare
                                                                                                              Medicare
                   contracts, CareFirst accounted for PRB costs using the pay-as-you-go method.

                  CMS
                  CMS reimburses
                            reimburses aa portionportion of   of its
                                                                  its contractors' PRB costs. In       In claiming
                                                                                                           claiming PRB
                                                                                                                    PRB costs,
                                                                                                                         costs, contractors
                                                                                                                                 contractors
                  must follow cost reimbursement principles contained in the Federal Acquisition Regulation
                  (FAR)      and applicable Cost Accounting Standards as required by their Medicare contracts.
                  (FAR) and applicable Cost Accounting Stadards as required 

                                                                                                                               contracts. On
                  November
                  November 25,2008, 25,2008, CareFirst submitted a termination                       claim of$I,543,972
                                                                                        termination claim    of$1,543,972 to seek
                  reimbursement
                  reimbursementfor          for future
                                                  futue PRB costs   costs thatthat itit had
                                                                                        had not  incured prior to the termination of
                                                                                            not incurred                           of the
                  Medicare contracts.

                  Our
                  Our objective
                       objective was
                                 was to
                                      to determine
                                         determine whether
                                                   whether CareFirst's termination claim for PRB costs associated
                                                            CareFirsts termination
                  with Medicare
                       Medicare Part A A and
                                          and B
                                              B contracts was allowable for Medicare reimbursement.

                  CareFirst's
                  CareFirsts entire  entire termination claim of$1,543,972
                                                                        of$I,543,972 inin PRB
                                                                                          PRB costs
                                                                                                costs for
                                                                                                      for Medicare Part A and B
                  contracts
                  contracts was   was unallowable
                                         unallowable for      for Medicare
                                                                    Medicare reimbursement.
                                                                              reimbursement. The termination claim was calculated
                  based
                  based on  on aa retroactive
                                    retroactive changechange in accounting practice without CMS approvaL.approval. Therefore,
                                                                                                                    Therefore, and
                                                                                                                               and
                  pursuant      to CareFirst's
                  pursuant to CareFirsts                Medicare
                                         Medicare contracts, none of                     the costs claimed
                                                                     contracts, none of the costs claimed   were allowable.
                                                                                                                 allowable.

                  We
                  We recommend
                      recommendthat
                                  that CareFirst
                                       CareFirstwithdraw
                                                 withdraw its
                                                           its termination
                                                                terminationclaim
                                                                            claimof$I,543,972
                                                                                  of$1,543,972 for
                                                                                               for PRB
                                                                                                   PRB costs
                                                                                                       costs
                  associated
                  associated with
                             with Medicare
                                  Medicare Part
                                            Part A
                                                 A and
                                                   and B
                                                       B contracts.
                                                         contracts.
Page 2 – Charlene Frizzera


In written comments on our draft report, CareFirst disagreed with our recommendation.
CareFirst said that the CMS contracting officer should use his or her discretion “to assure
equitable treatment of the contractor” and take into account “the statutorily-imposed
requirements of contract which states that the Intermediary not incur a loss.” We maintain that
CareFirst should withdraw the full claim amount.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov
or Patrick J. Cogley, Regional Inspector General for Audit Services, Region VII, at
(816) 426-3591 or through e-mail at Patrick.Cogley@oig.hhs.gov. Please refer to report number
A-07-09-00299.


Attachment
 /~
(::::2~        DEPARTMENT OF HEALTH & HUMAN SERVICES
                                                                                                     Offce
                                                                                                     OfficeofofInspector
                                                                                                     Offces
                                                                                                                InspectorGeneral
                                                                                                              ofAudit
                                                                                                      Officesof
                                                                                                                          General
                                                                                                                Audit Servces
                                                                                                                      Services

 ~,.::DEPARTMENT OF HEALTH & HUMAN SERVICES

(~~l
                                                                                                     Region VII
                                                                                                     Region VII
                                                                                                     601
                                                                                                     601 East
                                                                                                          East12th
                                                                                                               12th Stret

                                                                                                                    Street
                                                     JUN 11 22 209
                                                     JUN       2009                                  Roo284A
                                                                                                     Room2B4A
                                                                                                     Kansa
                                                                                                     KansasCity,
                                                                                                            City.Misouri
                                                                                                                 M"lSSOIIri64106
                                                                                                                            64106

      Report Number:
      Report Number: A-07-09-00299
                     A-07-09-00299

      Mr. Emery
      Mr. Emery Hill
                Hil

                               Coordination
      Manager, External Audit Coordination
      CareFirst of Maryland, Incorporated
                   Marland, Incorporated
      10455 Mill
      10455       Run Circle
            Mil Run   Circle
      Owings Mills,
      Owings Mils, Maryland  21117
                    Marland 21117

      Dear Mr. Hil:

      Dear Mr. Hill:

      Enclosed is the U.S. Department of Health
      Enclosed is the U.S. Deparent of                       Health and  and Human          Services (HHS),
                                                                                Human Services                Office ofInspector

                                                                                                      (HHS), Offce    of Inspector
      General       (OIG),     final    report     entitled
      General (OIG), final report entitled "Review of       "Review        of  Termination        Claim  for Postretirement  Benefit
      Costs
      Costs MadeMade      byofCareFirst of Maryland,
                 by CareFirst                       Maryland,     Incorporated."
                                                          Incorporated."                   Weof will
                                                                         We wil forward a copy  
    forward a copy of this report to
      the HHS action official noted on                on the following page    page forfor review
                                                                                             review and
                                                                                                     and any
                                                                                                         any action
                                                                                                              action deemed
                                                                                                                     deemed necessary.
                                                                                                                              necessary.

      The HHS
          HHS action
              action official willmake
                     offcial wil  makefinal
                                       final determination
                                             determination as to actions
                                                                 actions taken onall
                                                                         taen on  allmatters
                                                                                     matters reported.
                                                                                             reported.
      We
      We    request
         request that youthat   you
                          respond      respond
                                  to this            to this
                                          official within       official
                                                          30 days           within
                                                                  from the date of 30 days from the date of this letter.
                                                                                                                 letter. Your
      response should present any comments or additional information that you believe may have a
      bearing on the final determination.

      Pursuant to
                to the
                   the Freedom
                        Freedom of    Information Act,
                                  ofInformation     Act, 55 U.S.C.
                                                            U.S.C. §§ 552,
                                                                      552, OIG
                                                                           OIG reports generally are made
      available to
                to the
                    the public
                        public to
                               to the extent that information in the report is not subject to exemptions in
      the Act. Accordingly, this
          Act. Accordingly,    this report
                                     report will
                                            will be
                                                 be posted
                                                    posted onon the
                                                                the Internet
                                                                    Internet at http://oig.hhs.gov.

      If you havehave anyany questions
                                questions or comments about this report, please do not hesitate to call me at
      (816)    426-3591, or contact Jenenne Tambke, Audit Manager,· at (573) 893-8338, extension 21, or
      (816) 426-3591, or contact Jenenne Tambke, Audit Manager, 





      in all correspondence. .
      through e-mail at
      in all correspondence.
                              at Jenenne.Tambke@oig.hhs.gov.      Please refer to report number
                                   Jenenne.Tambke~oig.hhs.gov. Please                    number A-07-09-00299
                                                                                         .
                                                                                                 A-07-09-00299


                                                                  Sincerely,
                                                                  Sincerely,



                                                                  Patrick J.
                                                                  Patrick
                                                                  Regional
                                                                          J. Cogley
                                                                             Cogley
                                                                                   .~
                                                                  Regional Inspector
                                                                             Inspector General
                                                                                       General
                                                                    for Audit
                                                                   for  Audit Services
                                                                               Services


      Enclosure
      Enclosure
Page 2 – Mr. Emery Hill


Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Acting Director
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, Maryland 21244-1850
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




REVIEW OF TERMINATION CLAIM
FOR POSTRETIREMENT BENEFIT
COSTS MADE BY CAREFIRST OF
  MARYLAND, INCORPORATED




                    Daniel R. Levinson
                     Inspector General

                        June 2009
                      A-07-09-00299
                    Office of Inspector General
                                        http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

CareFirst of Maryland, Incorporated (CareFirst), administered Medicare Part A and Part B
operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS) beginning July 1, 1966. On December 31, 1994, the Part B contractual
relationship was terminated, and on September 30, 2005, the Part A contractual relationship was
terminated. Throughout the period of its Medicare contracts, CareFirst accounted for
postretirement benefit (PRB) costs using the pay-as-you-go method.

CMS reimburses a portion of its contractors’ PRB costs. In claiming PRB costs, contractors
must follow cost reimbursement principles contained in the Federal Acquisition Regulation
(FAR) and applicable Cost Accounting Standards as required by their Medicare contracts. On
November 25, 2008, CareFirst submitted a termination claim of $1,543,972 to seek
reimbursement for future PRB costs that it had not incurred prior to the termination of the
Medicare contracts.

OBJECTIVE

Our objective was to determine whether CareFirst’s termination claim for PRB costs associated
with Medicare Part A and B contracts was allowable for Medicare reimbursement.

SUMMARY OF FINDING

CareFirst’s entire termination claim of $1,543,972 in PRB costs for Medicare Part A and B
contracts was unallowable for Medicare reimbursement. The termination claim was calculated
based on a retroactive change in accounting practice without CMS approval. Therefore, and
pursuant to CareFirst’s Medicare contracts, none of the costs claimed were allowable.

RECOMMENDATION

We recommend that CareFirst withdraw its termination claim of $1,543,972 for PRB costs
associated with Medicare Part A and B contracts.

AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, CareFirst disagreed with our recommendation.
CareFirst said that the CMS contracting officer should use his or her discretion “to assure
equitable treatment of the contractor” and take into account “the statutorily-imposed
requirements of contract which states that the Intermediary not incur a loss.” CareFirst’s
comments are included in their entirety as the Appendix.

We maintain that CareFirst should withdraw the full claim amount. We held to the FAR
provisions when determining that CareFirst’s unallowable PRB claim represented a request for
reimbursement of unallowable costs.



                                               i
                                                  TABLE OF CONTENTS

                                                                                                                           Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................1
               Objective ......................................................................................................1
               Scope............................................................................................................1
               Methodology ................................................................................................1

FINDING AND RECOMMENDATION.........................................................................2

          FEDERAL REQUIREMENTS................................................................................2

          UNALLOWABLE TERMINATION CLAIM ........................................................3

          RECOMMENDATION ...........................................................................................3

          AUDITEE COMMENTS.........................................................................................3

          OFFICE OF INSPECTOR GENERAL RESPONSE ..............................................3

APPENDIX

          AUDITEE COMMENTS




                                                                 ii
                                       INTRODUCTION

BACKGROUND

CareFirst of Maryland, Incorporated (CareFirst), administered Medicare Part A and Part B
operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS) beginning July 1, 1966. On December 31, 1994, the Part B contractual
relationship was terminated, and on September 30, 2005, the Part A contractual relationship was
terminated. Throughout the period of its Medicare contracts, CareFirst accounted for the
postretirement benefit (PRB) costs associated with Medicare Part A and B contracts using the
pay-as-you-go method.

CMS reimburses a portion of its contractors’ PRB costs. In claiming PRB costs, contractors
must follow cost reimbursement principles contained in the Federal Acquisition Regulation
(FAR) and applicable Cost Accounting Standards as required by their Medicare contracts.

The Medicare contracts require that costs be estimated (budgeted), accumulated, and reported on
a consistent basis and that any change in accounting practice be submitted to CMS in advance.
Furthermore, the FAR sets forth the allowability requirements and the three methods of
accounting for PRB costs that are permitted under a Government contract.

On November 25, 2008, CareFirst submitted a termination claim of $1,543,972 to seek
reimbursement for future PRB costs that it had not incurred prior to the termination of the
Medicare contracts.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether CareFirst’s termination claim for PRB costs associated
with Medicare Part A and B contracts was allowable for Medicare reimbursement.

Scope

At the request of CMS, we audited the PRB termination claim of $1,543,972 that CareFirst
submitted for the Medicare Part A and B contracts’ PRB costs. Achieving our objective did not
require that we review CareFirst’s overall internal control structure. However, we reviewed the
internal controls related to the PRB termination claim to determine whether the claim was
allowable in accordance with the FAR.

Methodology

We examined CareFirst’s PRB claim in relation to applicable laws, regulations, and other
Federal requirements. We also reviewed information presented in CareFirst’s Termination Cost
Voucher, which included support prepared by CareFirst’s consulting actuaries.




                                              1
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                            FINDING AND RECOMMENDATION

CareFirst’s entire termination claim of $1,543,972 in PRB costs for Medicare Part A and B
contracts was unallowable for Medicare reimbursement. The termination claim was calculated
based on a retroactive change in accounting practice without CMS approval. Therefore, and
pursuant to CareFirst’s Medicare contracts, none of the costs claimed were allowable.

FEDERAL REQUIREMENTS

FAR 31.205-6(o) sets forth the requirements and applicable methods of accounting for PRB
costs under a Government contract. PRB costs may include, but are not limited to,
postretirement health care; life insurance provided outside a pension plan; and other welfare
benefits, such as tuition assistance, daycare, legal services, and housing subsidies provided after
retirement. PRB costs do not include retirement income and ancillary benefits, such as life
insurance, that pension plans pay following employees’ retirement.

FAR 31.205-6(o)(2) requires contractors to use one of three methods for measuring and
assigning PRB costs to accounting periods:

   •   The cash basis (or pay-as-you-go) method recognizes PRB costs when they are paid.

   •   The terminal funding method recognizes the entire PRB liability as a lump-sum payment
       upon termination of employees. The lump-sum payment must be remitted to an insurer
       or trustee for the purpose of providing PRBs to retirees and is allowable if amortized over
       15 years.

   •   The accrual method measures and assigns costs according to generally accepted
       accounting principles and pays costs to an insurer or trustee to establish and maintain a
       fund or reserve for the sole purpose of providing PRBs to retirees. The accrual must be
       calculated in accordance with generally accepted actuarial principles and practices as
       promulgated by the Actuarial Standards Board.

The Medicare contract, Appendix B, section II(A), requires that costs be estimated (budgeted),
accumulated, and reported on a consistent basis. In addition, CMS issued to Medicare
contractors the “Budget and Performance Requirements” (BPR), section VI(B), which states that
“as regards the allocation of such costs to the Medicare contract/agreement . . . [a]ny change in
accounting practice for such pension and/or post-retirement benefit costs must be submitted to
CMS in advance for approval.” The BPR further defines a change in accounting practice to
include “a change from cash (pay-as-you-go) accounting to accrual accounting . . . .” In
response to our prior reviews of PRB termination claims, CMS agreed that the Medicare


                                               2
contracts do not permit retroactive changes in accounting practices without advance CMS
approval; accordingly, CMS issued cost disallowances on that basis.

UNALLOWABLE TERMINATION CLAIM

On December 31, 1994, CareFirst’s Medicare Part B contractual relationship was terminated,
and on September 30, 2005, its Medicare Part A contractual relationship was terminated. On
November 25, 2008, CareFirst submitted a termination claim of $1,543,972 to seek
reimbursement for future PRB costs that CareFirst had not recognized prior to the termination of
the Medicare contracts.

Throughout the entire period of its Medicare contracts, CareFirst claimed PRB costs for
Medicare Part A and B contracts using the pay-as-you-go method. By selecting this method,
CareFirst signified that, pursuant to the FAR and its Medicare contracts, it would be reimbursed
only for actual paid claims during each year.

CareFirst based its termination claim for PRB costs on a retroactive change in its contract cost
accounting practice from the pay-as-you-go method to the accrual method. CareFirst did not
obtain CMS approval before making this change, as required by the BPR. Therefore, CareFirst’s
claimed reimbursement for $1,543,972 in PRB costs was unallowable.

RECOMMENDATION

We recommend that CareFirst withdraw its termination claim of $1,543,972 for PRB costs
associated with Medicare Part A and B contracts.

AUDITEE COMMENTS

In written comments on our draft report, CareFirst disagreed with our recommendation. Citing
FAR 49.201, CareFirst said that “. . . the [CMS] Contracting Officer should exercise business
judgment to ensure that the contractor is made whole, which in this case means taking into
account the statutorily-imposed requirements of contract which states that the Intermediary not
incur a loss.” CareFirst added that it would refund any pension surplus agreed upon during the
final settlement process. CareFirst’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

We maintain that CareFirst should withdraw the full claim amount. With respect to CareFirst’s
statement regarding FAR 49.201, we acknowledge that both the FAR and relevant statutes
support the general principle that the CMS contracting officer has the authority to use business
judgment in addressing and compromising contract claims. However, this authority, in our view,
cannot be read to override provisions of the contract, CMS’s BPR guidance, and the FAR
regarding allocating and accounting for PRB costs. We held to these provisions when
determining that CareFirst’s unallowable PRB claim represented a request for reimbursement of
unallowable costs.




                                              3
APPENDIX
APPENDIX
 Page 1 of 2
APPENDIX
 Page 2 of 2
